HHS/OIG-Audit--"Review of Foster Care Maintenance Payments Made by thePhiladelphia County Department of Human Services, (A-03-91-00551)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Foster Care Maintenance Payments Made by the Philadelphia County Department of Human Services," (A-03-91-00551)
January 7, 1992
Complete
Text of Report is available in PDF format (372 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Pennsylvania Department of Public Welfare was not entitled to almost $6.8 million
(Federal share) for Foster Care claims made during Fiscal Year 1989 because such claims were in violation of one or more
program requirements. In addition to procedural corrections we recommended a financial adjustment for $6.8 million. Operation
Division officials concurred with our recommendations.